No. 19-563
STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT OF TREASURY, et al.,
Petitioners,
v.
PATRICK J. COLLINS, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Vincent J. Colatriano, a member
of the Supreme Court Bar, certify that the REPLY BRIEF FOR THE
RESPONDENTS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for
the text and 10 point for the footnotes, and that this brief complies with the word
limitation of Supreme Court Rule 33.1(g)(x), containing 8,027 words, excluding the

parts that are exempted by Supreme Court Rule 33.1(d).

Date: November 26, 2019
Vincent J. Colatriano
